SUPREME COURT OF THE UNITED STATES
No, 19■X

KANEKA CORPORATION, A JAPANESE CORPORATION,
Petitioner,
v.
XIAMEN KINGDOMWAY GROUP COMPANY, A CHINESE
CORPORATION, PACIFIC RAINBOW INTERNATIONAL INC., A
CALIFORNIA CORPORATION,
Respondents.
X

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h),
I certify that the document contains 8,989 words,
excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing
is true and correct.

Executed on January 10, 2020.

N^l Reyes
SW3rn to and subscribed before me
[this 10th day orsJanuary, 2020.
"Elfas Melendez
Notary Public State of New York
No. 24-4799661
Qualified m Kings County
Commission Expires Aug, 31, 2021
#291472

